No. ______
In the

Supreme Court of the United States
__________________
HAMILTON COUNTY JOB AND FAMILY SERVICES, ET AL.,
Petitioners,
v.
JOSEPH AND MELISSA SIEFERT,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
J. DAVID BRITTINGHAM
Counsel of Record
JASON R. GOLDSCHMIDT
DINSMORE & SHOHL LLP
255 East Fifth Street
Suite 1900
Cincinnati, Ohio 45202
(513) 977-8200

JAMES W. HARPER
JEROME A. KUNKEL
ERIC A. MUNAS
Assistant Prosecuting Attorneys
230 East Ninth Street
Suite 4000
Cincinnati, Ohio 45202
(513) 946-3000

david.brittingham@dinsmore.com
jason.goldschmidt@dinsmore.com

james.harper@hcpros.org
jerry.kunkel@hcpros.org
eric.munas@hcpros.org

Counsel for Petitioners
September 18, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
A. Did the Sixth Circuit err when it failed to conduct
an individualized analysis of Petitioners’ actions
before blanketly rejecting their asserted defense of
qualified immunity?
B. Did the Sixth Circuit err when it determined that,
through a footnote, it was clearly established that a
children’s services caseworker has an affirmative
duty to protect parental due process rights when a
child is hospitalized and no child custody
proceedings have been initiated?
C. Whether this Court should resolve the circuit
conflict on the important federal question of
whether a private, non-profit hospital and private
healthcare providers, are state actors subject to
claims under 42 U.S.C. § 1983 when they simply
provide medical care and cooperate with a county
Job and Family Services Department for the
appropriate treatment of a suicidal minor.

ii
PARTIES TO THE PROCEEDINGS
Petitioners Cincinnati Children’s Hospital Medical
Center (“CCHMC”), Jennifer Bowden, M.D., Kimberley
Stephens, LISW, Ankita Zutshi, M.D., Daniel Almeida,
M.D., Suzanne Sampang, M.D., and Lauren Heeney
(collectively, “CCHMC Petitioners”) were the
Defendants in the District Court and the DefendantAppellees in the Court of Appeals.
Petitioners Hamilton County, Board of Hamilton
County Commissioners, Moira Weir, Eric Young, and
Rachel Butler (collectively, “HCJFS Petitioners”) were
the Defendants in the District Court and the
Defendant-Appellees in the Court of Appeals.
Respondents Joseph and Melissa Siefert
(“Respondents”) were the Plaintiffs in the District
Court and the Plaintiff-Appellants in the Court of
Appeals.
CORPORATE DISCLOSURE STATEMENT
Pursuant to Sup. Ct. R. 29.6, undersigned counsel
state as follows:
None of the Petitioners are publicly traded
companies or have parent entities that are publicly
traded companies.
RELATED CASES
Apart from the proceedings directly on review in
this case, there are no other directly related
proceedings in any court.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vi
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 2
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 7
A. Minor Siefert Was Voluntarily Admitted to
CCHMC After Reporting Abuse by Respondents
........................................ 7
B. Allegations against HCJFS Petitioners Weir,
Butler, and Young. . . . . . . . . . . . . . . . . . . . . . . . . 9
REASONS FOR ALLOWING THE WRIT . . . . . . . 13

iv
A. Petitioners Weir, Young, and Butler, in their
Individual Capacities, Have Asserted the
Defense of Qualified Immunity, and well-settled
Sixth Circuit Law Demands that they Receive
an Evaluation of that Defense Based on their
Individual Actions. These Petitioners Received
No such Evaluation. . . . . . . . . . . . . . . . . . . . . . . 13
B. It is Not Clearly Established Law in the Sixth
Circuit that a Caseworker has an Affirmative
Duty to Protect Parental Due Process Rights
When a Child is Hospitalized and Prior to the
Initiation of Any Child Custody Proceedings . . 18
C. This Court Should Decide That a Private
Hospital and Private Healthcare Providers Are
Not State Actors Subject to Claims Under 42
U.S.C. §1983 When They Collaborate With State
Agencies to Meet their Legal Duties . . . . . . . . . 22
1. The Sixth Circuit’s Decision Finding the
Allegations in the Complaint Adequately
Pled the CCHMC Petitioners Acted Under
Color of State Law Conflicts with Sixth
Circuit Precedent, Other Circuit
Court Precedent, and Precedent from this
Court . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
2. The CCHMC Petitioners’ Compliance with
State Reporting Statutes Did Not Transform
them into State Actors . . . . . . . . . . . . . . . . . 28
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

v
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(March 3, 2020) . . . . . . . . . . . . . . . App. 1
Appendix B Order Lifting the Stay and Granting
County Defendants’ Motion to Dismiss
in the Southern District of Ohio
Western Division
(November 15, 2018) . . . . . . . . . . App. 31
Appendix C Judgment in a Civil Case in the
Southern District of Ohio Western
Division
(November 15, 2018) . . . . . . . . . . App. 51
Appendix D Order Granting County Defendants’
Motion to Stay Proceedings, Granting
Children’s Defendants’ Motion to
Dismiss, and Denying Plaintiffs’
Motions to File Supplemental
Memoranda
(August 2, 2018) . . . . . . . . . . . . . App. 53
Appendix E Order Denying Rehearing in the
United States Court of Appeals for the
Sixth Circuit
(April 23, 2020) . . . . . . . . . . . . . . App. 76

vi
TABLE OF AUTHORITIES
CASES
American Manufacturers Mutual Insurance v.
Sullivan, 526 U.S. 40, 119 S.Ct. 977 (1999) . . . 22
Anderson v. Creighton,
483 U.S. 635, 107 S.Ct. 3034 (1987). . . . . . . . . . 17
Ashcroft v. al-Kidd,
563 U.S. 731, 131 S.Ct. 2074 (2011). . . . . . . 20, 21
Ashcroft v. Iqbal,
556 U.S. 662 (2009). . . . . . . . . . . . . . . . . . . . 14, 27
Bakalis v. Golembeski,
35 F.3d 318 (7th Cir. 1994). . . . . . . . . . . . . . . . . 14
Binay v. Bettendorf,
601 F.3d 640 (6th Cir. 2010). . . . . . . . . . . . . . . . 13
Blum v. Yaretsky,
457 U.S. 991, 102 S.Ct. 2777 (1982). . . . 23, 24, 25
Blythe v. Schlievert,
2017 U.S. Dist. LEXIS 45556
(N.D. Ohio, March 28, 2017). . . . . . . . . . . . . 26, 31
Booker v. LaPaglia,
617 Fed.Appx. 520 (6th Cir. 2015) . . . . . . . . . . . 13
Brown v. Newberger,
291 F.3d 89 (1st Cir.2002) . . . . . . . . . . . . . . 24, 31
Collyer v. Darling,
98 F.3d 211 (6th Cir. 1996). . . . . . . . . . . . . . . . . 23

vii
Doe v. Rosenberg,
996 F.Supp. 343 (S.D.N.Y. 1998) . . . . . . . . . . . . 23
Doe v. Rosenberg,
166 F.3d 507 (2d Cir. 1999) . . . . . . . . . . . . . . . . 23
Dorsey v. Barber,
517 F.3d 389 (6th Cir. 2008). . . . . . . . . . . . . . . . 13
Drimal v. Tai,
786 F.3d 219 (2d Cir. 2015) . . . . . . . . . . . . . . . . 14
Ellison v. Garbarino,
48 F.3d 192 (6th Cir. 1995). . . . . . . . . . . 23, 24, 30
Ghandi v. Police Dept. of City of Detroit,
747 F.2d 338 (6th Cir. 1984). . . . . . . . . . . . . 13, 14
Grant v. City of Pittsburgh,
98 F.3d 116 (3d Cir. 1996) . . . . . . . . . . . . . . . . . 14
Haag v. Cuyahoga County,
619 F. Supp. 262 (N.D. Ohio 1985) . . . . . . . . . . 31
Haag v. Cuyahoga County,
798 F.2d 1414 (6th Cir. 1986). . . . . . . . . . . . . . . 31
Harvey v. Harvey,
949 F.2d 1127 (11th Cir. 1992.) . . . . . . . . . . 23, 24
Harville v. Vanderbilt University, Inc.,
95 Fed. Appx. 719 (6th Cir. 2003) . . . . . . . . 30, 31
Hicks v. City of Watonga, Okla.,
942 F.2d 737 (10th Cir. 1991). . . . . . . . . . . . . . . 14
Hogan v. A.O. Fox Mem’l Hosp.,
346 F. App’x 627 (2d Cir. 2009) . . . . . . . . . . . . . 23

viii
Jackson v. Metro. Edison Co.,
419 U.S. 345, 95 S. Ct. 449,
42 L. Ed. 2d 477 (1974) . . . . . . . . . . . . . . . . . . . . 26
Johnson v. Jones,
515 U.S. 304, 115 S.Ct. 2151 (1995). . . . . . . . . . 14
Jordan v. Gilligan,
500 F.2d 701 (6th Cir. 1974). . . . . . . . . . . . . . . . 20
Kottmyer v. Maas,
436 F.3d 684 (6th Cir. 2006). . . . 19, 20, 21, 25, 26
Lillard v. Shelby County Board of Education,
76 F.3d 716 (6th Cir. 1996). . . . . . . . . . . . . . . . . 27
Manning v. Cotton,
862 F.3d 663 (8th Cir. 2017). . . . . . . . . . . . . . . . 14
Marie v. Am. Red Cross,
771 F.3d 344 (6th Cir. 2014). . . . . . . . . . . . . . . . 26
Meadours v. Ermel,
483 F.3d 417 (5th Cir. 2007). . . . . . . . . . . . . . . . 14
Mitchell v. Forsyth,
472 U.S. 511, 105 S.Ct. 2806 (1985). . . . . . . . . . 17
Mueller v. Auker,
700 F.3d 1180 (9th Cir. 2012). . . . . . . . . . . . . . . 31
NCAA v. Tarkanian,
488 U.S. 179, 109 S. Ct. 454 (1988) . . . . . . . 23, 27
Pearson v. Callahan,
555 U.S. 223, 129 S.Ct. 808 (2009). . . . . . . . . . . 17

ix
Pino v. Higgs,
75 F.3d 1461 (10th Cir. 1996). . . . . . . . . . . . . . . 23
Pittman v. Cuyahoga County Dept. of Children
and Family Services,
640 F.3d 716 (6th Cir. 2011). . . . . . . . . . . . . 18, 19
Pollard v. City of Columbus,
780 F.3d 395 (6th Cir. 2015). . . . . . . . . . . . . . . . 14
Spencer v. Lee,
864 F.2d 1376 (7th Cir. 1989). . . . . . . . . . . . . . . 25
Stanton v. Sims,
571 U.S. 3, 134 S.Ct. 3 (2013). . . . . . . . . . . . . . . 20
Stivers v. Pierce,
71 F.3d 732 (9th Cir. 1995). . . . . . . . . . . . . . . . . 14
Thomas v. Beth Israel Hospital,
710 F.Supp. 935 (S.D.N.Y. 1989) . . . . . . . . . . . . 31
Thomas v. Nationwide Children’s Hosp.,
882 F.3d 608 (6th Cir. 2018). . . . . . . . . . . . . . . . 26
Tracy v. SSM Cardinal Glennon Children’s Hosp.,
E.D.Mo. No. 4:15-CV-1513,
2016 U.S. Dist. LEXIS 89993
(July 12, 2016). . . . . . . . . . . . . . . . . . . . . . . . 24, 31
Vanderhoef v. Dixon,
938 F.3d 271 (6th Cir. 2019). . . . . . . . . . . . . . . . 20
Waldrop v. Evans,
871 F.2d 1030 (11th Cir. 1989). . . . . . . . . . . . . . 14
White v. Pauly,
137 S.Ct. 548, 196 L.Ed.2d 463 (2017). . . . . . . . 20

x
Wilson v. Layne,
526 U.S. 603, 119 S.Ct. 1692,
143 L.Ed.2d 818 (1999) . . . . . . . . . . . . . . . . . 20, 21
CONSTITUTION AND STATUTES
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . 2, 7, 23
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . passim
Ohio Revised Code § 2151.421(A) . . . . . . . . . . . . . . 28
Ohio Revised Code § 2151.421(A)(1) . . . . . . . . . . . . . 3
Ohio Revised Code § 2151.421(D) . . . . . . 3, 4, 5, 7, 33
Ohio Revised Code § 2151.421(D)(3) . . . . . . . . . 28, 33
Ohio Revised Code § 2151.421(D)(5) . . . . . . . . . 29, 30

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners respectfully seek a writ of certiorari to
review the judgment of the Sixth Circuit Court of
Appeals. The Sixth Circuit’s decision in this case
conflicts with other Circuit Court precedent and
precedent from this Court on critically important
questions of federal law.
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Sixth Circuit is reported at Siefert v. Hamilton
County, 951 F.3d 753 (6th Cir. 2020). The Sixth Circuit
affirmed in part and reversed in part the November 15,
2018 decision of the United States District Court for
the Southern District of Ohio, which is reported at 354
F. Supp.3d 815 (S.D. Ohio 2018).
STATEMENT OF JURISDICTION
Petitioners seek a review from this Court of the
Sixth Circuit’s Opinion and Judgment, dated March 3,
2020, affirming in part and reversing in part the
decision of the District Court. Petitioners timely sought
a rehearing from the Sixth Circuit, which was denied
by Order dated April 23, 2020. Pursuant to this
Court’s Order dated March 19, 2020, the deadline to
file any petition for a writ of certiorari was extended to
150 days from the lower court order denying a timely
petition for rehearing. Thus, September 21, 2020 is the
deadline for this petition to be timely filed. This Court
has jurisdiction under 28 U.S.C. § 1254(1).

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
42 U.S.C. § 1983 provides in relevant part:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress, except
that in any action brought against a judicial
officer for an act or omission taken in such
officer’s judicial capacity, injunctive relief shall
not be granted unless a declaratory decree was
violated or declaratory relief was unavailable.
The 14th Amendment of the United States
Constitution provides in relevant part:
No state shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any state
deprive any person of life, liberty, or property,
without due process of law; nor deny to any
person within its jurisdiction the equal
protection of the laws.

3
Ohio Revised Code § 2151.421(A)(1) provides in
relevant part:
(a)

No person described in division (A)(1)(b)
of this section who is acting in an official
or professional capacity and knows, or has
reasonable cause to suspect based on facts
that would cause a reasonable person in a
similar position to suspect, that a child
under eighteen years of age . . . has
suffered or faces a threat of suffering any
physical or mental wound, injury,
disability, or condition of a nature that
reasonably indicates abuse or neglect of
the child shall fail to immediately report
that knowledge or reasonable cause to
suspect to the entity or persons specified
in this division.

(b)

Division (A)(1)(a) of this section applies to
any person who is a . . . health care
professional . . . employee of a county
department of job and family services who
is a professional and who works with
children and families.

Ohio Revised Code § 2151.421(D) provides in
relevant part:
(1)

Any person, who is required by division
(A) of this section to report child abuse or
child neglect that is known or reasonably
suspected or believed to have occurred,
may take or cause to be taken color
photographs of areas of trauma visible on

4
a child and, if medically necessary for the
purpose of diagnosing or treating injuries
that are suspected to have occurred as a
result of child abuse or child neglect,
perform or cause to be performed
radiological examinations and any other
medical examinations of, and tests or
procedures on, the child.
(3)

(5)

***
If a health care professional provides
health care services in a hospital,
children’s advocacy center, or emergency
medical facility to a child about whom a
report has been made under division (A)
of this section, the health care
professional may take any steps that are
reasonably necessary for the release or
discharge of the child to an appropriate
environment. Before the child’s release or
discharge, the health care professional
may obtain information, or consider
information obtained, from other entities
or individuals that have knowledge about
the child. Nothing in division (D)(3) of
this section shall be construed to alter the
responsibilities of any person under
sections 2151.27 and 2151.31 of the
Revised Code.
***
Medical examinations, tests, or
procedures conducted under divisions
(D)(1) and (4) of this section and decisions

5
regarding the release or discharge of a
child under division (D)(3) of this section
do not constitute a law enforcement
investigation or activity.
INTRODUCTION
With respect to the HCJFS Petitioners, the Sixth
Circuit’s decision subjects three public servants, sued
in their individual capacities, to potential personal
liability for actions taken in relation to the protection
of a child. Qualified immunity in this context is a
particularly important defense as children’s services
workers necessarily must champion the state’s weighty
interest in the protection and well-being of children
within its jurisdiction, while also carefully avoiding
actions which violate parental rights. When the Sixth
Circuit reversed the District Court’s decision on
qualified immunity without conducting any analysis
whatsoever of the HCJFS Petitioners’ individual
actions, it did so in violation of well-settled precedent.
Moreover, the Sixth Circuit dangerously elected to
declare a proposition of law as clearly-established when
its only in-circuit appearance is in a footnote. While
qualified immunity understandably should not be so
broadly applied so as to make plaintiffs unable to
pursue redress for official actions that violate their
rights, courts should be careful not to let cases proceed
without clearly-established precedent and without any
individualized analysis of the alleged facts. This Court
should accept jurisdiction in this case and reverse the
Sixth Circuit’s finding the Respondents asserted a
claim that the HCJFS Petitioners violated clearlyestablished constitutional rights, and further reversing

6
the Sixth Circuit’s wayward decision to make a
judgment regarding qualified immunity without
conducting any individualized analysis of Petitioners’
alleged actions.
With respect to the CCHMC Petitioners, the Sixth
Circuit’s decision renders a private, non-profit hospital
and its employees state actors subject to claims under
42 U.S.C. § 1983 when they simply provided medical
care, complied with state child-abuse reporting
statutes, and coordinated with a county Job and Family
Services Department for the appropriate treatment of
a suicidal minor. The Sixth Circuit’s decision conflicts
with precedent established by this Court and other
Circuit Courts. Additionally, there does not appear to
be any Sixth Circuit precedent finding a private, nonprofit hospital to be a state actor under such
circumstances. Thus, the Sixth Circuit’s decision
appears to be the first of its kind, further
demonstrating that this case involves questions of
exceptional public importance under federal law.
Indeed, the Sixth Circuit’s decision allows a plaintiff
to overcome the general rule that a private, non-profit
hospital is not a state actor by simply pleading that the
hospital and its employees cooperated with the HCJFS
Petitioners for the appropriate treatment of a suicidal
minor while the HCJFS Petitioners actively
investigated suspected abuse by the child’s parents.
The Sixth Circuit’s decision will expose private
hospitals and physicians to liability under 42 U.S.C.
§ 1983 every time they collaborate with state agencies
to meet their legal duties. Such exposure will have an
inevitable chilling effect when cooperation between a

7
hospital and a state agency is necessary to care for a
child in need of help, particularly from parents who are
alleged to be abusive.
Moreover, the relevant Ohio statute specifically
states that healthcare professionals may take any steps
reasonably necessary for the release or discharge of a
child to an appropriate environment, and that a
healthcare professional’s decisions related to the
discharge of a minor patient do not constitute law
enforcement investigation or activity (i.e. state action).
See Ohio Revised Code § 2151.421(D). The District
Court, in granting the CCHMC Petitioners’ motion to
dismiss, appropriately held that the CCHMC
Petitioners’ rendering of medical care and compliance
with state reporting statutes did not transform them
into state actors subject to claims under 42 U.S.C.
§ 1983. App. 71-73. This Court should accept
jurisdiction and reverse the Sixth Circuit’s Order
finding the CCHMC Petitioners are state actors subject
to claims under 42 U.S.C. § 1983.
STATEMENT OF THE CASE
A. Minor Siefert Was Voluntarily Admitted to
CCHMC After Reporting Abuse by
Respondents.
Respondents in this case, Joseph and Melissa
Siefert, alleged that their Fourteenth Amendment
procedural and substantive due process rights in the
custody and care of their child (“Minor Siefert”) were
violated by the Petitioners. The basis for federal
jurisdiction in the first instance was that of federal
question jurisdiction conferred by 28 U.S.C. § 1331. The

8
alleged violation occurred in relation to Minor Siefert’s
hospitalization and the Respondents’ subsequent
efforts to have Minor Siefert discharged from the
hospital into their custody.
Minor Siefert was born a biological girl, however,
around the age of fifteen, Minor Siefert informed
Respondents that she considered herself to be a
transgender child. (RE 1, P. 3).1 Minor Siefert also
informed Respondents that she was suffering from
depression, anxiety, and suicidal ideations. (RE 1, P.
3, 7).
On or about November 10, 2016, Minor Siefert sent
an email to HCJFS stating that she was experiencing
transgender thoughts and explaining that “her parents
were not supportive and that their conduct towards her
amounted to abuse.” (RE 1, P. 7). As HCJFS initiated
an investigation into the suspected abuse of Minor
Siefert, on or about November 13, 2016, Respondents
took Minor Siefert to CCHMC to “conduct a
psychological evaluation regarding suicidal ideations,”
based upon a pediatrician’s recommendation. (RE 1, P.
7-8). On or about November 14, 2016, Minor Siefert
was transferred to a CCHMC psychiatric facility. (RE
1, P. 8).
While at CCHMC, Respondents allege Minor Siefert
was treated by the CCHMC Petitioners as part of a
multidisciplinary team, including physicians,
1

Respondents filed the Complaint under seal in the District Court
due to the highly sensitive nature of the allegations in the
Complaint, including details related to medical care received by a
minor.

9
representatives of nursing staff, clinical pharmacy, and
social workers. (RE 1, P. 10). As Respondents’
allegations acknowledge, the CCHMC Petitioners held
multiple family meetings with Respondents in order to
discuss Minor Siefert’s discharge to an appropriate
environment. (RE 1, P. 11-14). HCJFS continued its
child-abuse investigation throughout the time Minor
Siefert was a patient at CCHMC. (RE 1, P. 11-17). As
expected, a certain amount of communication about
Minor Siefert took place between the CCHMC
Petitioners and the HCJFS Petitioners.
On or about December 20, 2016, Respondents
agreed to enter into a voluntary safety plan, in which
Respondents agreed to allow Minor Siefert to
temporarily stay with Minor Siefert’s maternal
grandparents to help ensure the child’s safety. (RE 1,
P. 17). After entering into the voluntary safety plan,
which allowed Minor Siefert to be discharged to an
appropriately safe environment, Minor Siefert was
discharged on December 20, 2016. (Id.).
B. Allegations against HCJFS Petitioners Weir,
Butler, and Young.
On August 1, 2017, Respondents filed the instant
lawsuit against Petitioners. On August 2, 2018, the
District Court dismissed this case on Petitioners’
respective Rule 12(b)(6) motions. App. 74-75.
Therefore, the facts material to the consideration of the
questions presented herein are those alleged in the
Complaint.
Regarding HCJFS Petitioners Weir,
Butler, and Young, who are seeking to appeal the
rejection of their asserted defense of qualified
immunity, the particular facts that are material are

10
those allegations of actions taken by each individual
Petitioner.
Weir. Moira Weir is identified in paragraph 6 of
the Complaint as the director of HCJFS and as having
the authority to make official policy and custom in the
agency and to train and supervise staff. (RE 1, P. 4).
The Complaint alleges that Weir responded to an email
that Minor Siefert had sent to HCJFS, telling Minor
Siefert that she had forwarded the email to the
Hamilton County Public Children’s Services Agency.
(RE 1, P. 8). In paragraph 134, the Complaint asserts
that Weir, as director of HCJFS, had the duty to adopt
rules for training caseworkers and supervisors. (RE 1,
P. 23). Lastly, the Complaint demands relief against
Weir in the demand for relief at the end of the
Complaint.
Of these minimal references to Weir made in the
Complaint, only one of them alleges an action taken by
Weir – responding to an email sent to HCJFS by Minor
Siefert.
Butler. Rachel Butler is identified in paragraph 8
of the Complaint as a HCJFS Children’s Services
caseworker. (RE 1, P. 4). The Complaint alleges a
number of actions taken by Butler. Butler went to the
Sieferts’ home on November 10, 2016, which is the
same day that Minor Siefert sent an email to HCJFS.
(RE 1, P. 7). Butler spoke to Mrs. Siefert while she was
there and asked several questions regarding the
children in the home and the treatment of Minor
Siefert. (RE 1, P. 8). Respondents consulted with
HCJFS representatives, including Butler regarding
Minor Siefert’s treatment while hospitalized. (RE 1,

11
P. 9-10). During the first such conference, Butler
allegedly explained the “custom and policy of HCJFS”
regarding parents removing their children from the
hospital, and stated that the hospital would not send
Minor Siefert home without permission from HCJFS.
(RE 1, P. 10). Butler is further alleged to have said
that before Minor Siefert would be allowed to leave,
HCJFS had to make sure they put Minor Siefert in the
right place, and that if Respondents were unable to
take care of Minor Siefert, HCJFS would do so. (Id.).
Butler later failed to attend a family discharge
meeting on November 22, 2016 which she was
scheduled to attend. (RE 1, P. 11). It was represented
to the Respondents that Butler was unavailable until
November 28, 2016, but the Respondents learned that
Butler was in contact with Ms. Stephens regularly
during this time. (RE 1, P. 11-12). Butler also met
with Minor Siefert on November 23, 2016. (RE 1, P.
12). During this time period, HCJFS reported that it
was actively pursuing the case, yet the agency did not
make any attempt to obtain a court order for custody.
(Id.).
On November 23, 2016, while he was trying to have
Minor Siefert discharged, Mr. Siefert left calls for
HCJFS personnel, including Butler, but received no
return calls. (Id.). Butler was in contact with Ms.
Stephens during this time, and Butler allegedly told
Ms. Stephens that the parents could not take Minor
Siefert home. (RE 1, P. 13).
On November 28, 2016, Butler attended the
scheduled meeting by telephone, only participating in
part of the meeting and was distracted with other

12
matters during the call. (Id.). When asked what
Respondents had to do to have their child discharged,
Butler responded saying “it does not work that way”
and stated that HCJFS must step in when parents are
unable to care for their children. (RE 1, P. 14). Butler
ended her call into the meeting without resolving the
Respondents’ concerns regarding discharge. (Id.).
On November 30, 2016, the morning after Mr.
Siefert exchanged emails with County Administrator
Jeff Aluotto, Butler called Mr. Siefert to set up a
meeting between herself, the Respondents, and her
supervisor Eric Young to discuss their case. (RE 1,
P.15). Butler and Young met with the Respondents at
HCJFS in a conference room. (RE 1, P. 16).
On December 7, 2016, Young and Butler told Ms.
Stephens that Minor Siefert could not go home. (RE 1,
P. 17).
Young. Eric Young is identified in paragraph 7 of
the Complaint as a HCJFS Children’s Services
caseworker supervisor. (RE 1, P. 4). The Complaint
alleges Young took part in the November 30, 2016
meeting with Respondents and Rachel Butler. (RE 1,
P. 15). During the meeting, Young referred to HCJFS
as “we.” (RE 1, P. 16). Further, during the meeting,
Young described HCJFS policies and procedures,
including the agency’s duty to investigate claims and to
make judgment calls. (Id.). In particular, the
Complaint alleges that Young explained:
“the HCJFS policy of preventing parents from
having custody or association of their children
when Children’s doctors and/or HCJFS officials

13
do not approve of releasing the child to the
parents, even without parents’ consent or a court
order.
In Mr. Young’s words, the policy
amounted to: “we have to go by what the doctors
say.”
(Id.). Finally, Young informed Ms. Stephens on
December 7, 2016 that Minor Siefert could not go
home. (RE 1, P. 17).
REASONS FOR ALLOWING THE WRIT
A. Petitioners Weir, Young, and Butler, in their
Individual Capacities, Have Asserted the
Defense of Qualified Immunity, and wellsettled Sixth Circuit Law Demands that they
Receive an Evaluation of that Defense Based
on their Individual Actions. These Petitioners
Received No such Evaluation.
Petitioners Weir, Young, and Butler have each
asserted the defense of qualified immunity in this case.
The Sixth Circuit has well-settled case law explaining
how a qualified immunity defense must be evaluated.
Though counsel for the HCJFS Petitioners represent
multiple defendants, “[i]n evaluating a qualified
immunity defense, it is well established that ‘[e]ach
defendant’s liability must be assessed individually
based on his own actions.’” Booker v. LaPaglia, 617
Fed.Appx. 520, 524 (6th Cir. 2015), quoting Binay v.
Bettendorf, 601 F.3d 640, 650 (6th Cir. 2010), citing
Dorsey v. Barber, 517 F.3d 389, 399 n. 4 (6th Cir. 2008)
(emphasis added); Ghandi v. Police Dept. of City of
Detroit, 747 F.2d 338, 344 (6th Cir. 1984) (noting that
where individual defendants played different roles in

14
the alleged factual circumstances, the conduct of each
defendant must be examined to make a determination
on qualified immunity). Such an individualized
analysis is necessary “to ensure that a defendant’s
liability is assessed based on his own individual
conduct and not the conduct of others.” Id., quoting
Pollard v. City of Columbus, 780 F.3d 395, 402 (6th Cir.
2015). When the district court fails to conduct an
individualized analysis (as happened in this case), an
appellate court has the authority to review the record
to evaluate the defense. Id., citing Johnson v. Jones,
515 U.S. 304, 319, 115 S.Ct. 2151 (1995).
Moreover, decisions issued by the Courts of Appeals
for the Second, Third, Fifth, Seventh, Eighth, Ninth,
Tenth, and Eleventh Circuits hold that each
defendant’s entitlement to qualified immunity must be
considered separately. See, e.g., Drimal v. Tai, 786
F.3d 219, 226 (2d Cir. 2015); Grant v. City of
Pittsburgh, 98 F.3d 116, 123 (3d Cir. 1996); Meadours
v. Ermel, 483 F.3d 417, 422 (5th Cir. 2007); Bakalis v.
Golembeski, 35 F.3d 318, 326-27 (7th Cir. 1994);
Manning v. Cotton, 862 F.3d 663, 668 (8th Cir. 2017);
Stivers v. Pierce, 71 F.3d 732, 750-51 (9th Cir. 1995);
Hicks v. City of Watonga, Okla., 942 F.2d 737, 747
(10th Cir. 1991); Waldrop v. Evans, 871 F.2d 1030,
1034 (11th Cir. 1989).
In this case, the District Court found no
constitutional violation had been pled by the
Respondents, therefore Judge Black did not proceed to
conduct an individualized analysis of each defendant’s
conduct. App. 40-41; see Ashcroft v. Iqbal, 556 U.S. 662,
676 (2009) (“Because vicarious liability is inapplicable

15
to Bivens and § 1983 suits, a plaintiff must plead that
each Government-official defendant, through the
official’s own individual actions, has violated the
Constitution.”). The Sixth Circuit conducted its legal
analysis while grouping HCJFS Petitioners together
and never sought to evaluate each Petitioner’s
individual actions. While the opinion includes a
recitation of facts alleged in the Complaint, the
qualified immunity analysis only refers generally to the
collective action of all Petitioners before concluding
that the District Court’s grant of qualified immunity
was premature at this stage of the litigation. The
resulting opinion, therefore, is out of step with wellestablished Sixth Circuit precedent, out-of-circuit
precedent, and Supreme Court law.
With particular regard to HCJFS Petitioner Weir,
the Sixth Circuit’s opinion includes no reference to her
whatsoever outside of the caption. Ostensibly, the
appellate court determined that Weir’s alleged actions
may plausibly have amounted to a procedural due
process violation. Without the individualized analysis
from the appellate court, however, the District Court
and the parties will be proceeding in a shadow of
uncertainty. What further factual development is
necessary to establish that Petitioners Weir, Butler,
and Young are entitled to qualified immunity? Or, on
the other hand, what factual development might the
Respondents seek to establish to show that qualified
immunity should not apply? As explained herein, the
Complaint alleges a single action taken by Weir - a
reply to an email from Minor Siefert. For
understandable reasons, the Sixth Circuit saw no need
to include reference to this in their recitation of facts.

16
It is not understandable, however, why Weir’s
individual assertion of qualified immunity received no
attention in the appellate court’s analysis, nor is it
understandable why she should still be subjected to a
possibility of individual liability in this matter.
Likewise, there is uncertainty with how to proceed
as to Petitioners Butler and Young and the cases for
and against their individual liability in this case.
Which actions alleged in the Complaint are deserving
of more attention during the prospective litigation?
A reasonable interpretation of the Sixth Circuit’s
Opinion is that the Complaint alleges a plausible case
that the actions of the individual HCJFS Petitioners
amounted to a deprivation of the Respondents’
procedural due process rights. But without any
analysis of each HCJFS Petitioners’ individual actions,
the Sixth Circuit has acted in a manner contrary to its
own well-settled precedent. Since the appellate court
declined to rehear the matter, a petition of certiorari is
the only redress left for these Petitioners. If this Court
does not grant this petition and reverse the decision of
the Sixth Circuit, the prospective District Court
proceedings will be conducted under a shadow of
uncertainty, and summary judgment will necessarily
include a re-litigation of certain items that should have
been settled before the case was remanded to the
District Court.
The purpose of qualified immunity is defeated if the
analysis is left incomplete and improperly applied.
Indeed, this Court has stated that “[b]ecause qualified
immunity ‘is an immunity from suit rather than a mere
defense to liability . . . it is effectively lost if a case is

17
erroneously permitted to go to trial.’” Pearson v.
Callahan, 555 U.S. 223, 231, 129 S.Ct. 808 (2009),
quoting Mitchell v. Forsyth, 472 U.S. 511, 526, 105
S.Ct. 2806 (1985). While permitting a case to proceed
past a Rule 12 motion and to summary judgment is not
the same as letting a case go to trial, this Court has
further recognized that “the ‘driving force’ behind
creation of the qualified immunity doctrine was a
desire to ensure that ‘insubstantial claims’ against
government officials [will] be resolved prior to
discovery.’” Id., quoting Anderson v. Creighton, 483
U.S. 635, 640, n. 2, 107 S.Ct. 3034 (1987) (emphasis
added).
This case, should it proceed, will likely involve an
extensive and lengthy discovery phase. Minor Siefert
was hospitalized for several weeks. Numerous doctors,
nurses, and other hospital staff witnessed the events
that took place at the hospital and were involved in
Minor Siefert’s care and Respondents’ efforts to have
their child discharged. There will be a necessary
evaluation of the medical records, which may
necessitate the hiring of experts to provide professional
opinions. In total, the undersigned counsel estimate
that thirty or more depositions may occur. Qualified
immunity, where appropriately applied, is meant to
prevent individual capacity defendants from the
necessity of expending the cost and resources
associated with such discovery. While this Court may
decide to not reverse the appellate court’s judgment,
the law demands that the HCJFS Petitioners’ claims of
qualified immunity be addressed individually to protect
them from such burdens in continued litigation.
Providing that individualized analysis will, at the very

18
least, narrow some of the issues, thereby reducing the
burden of continued litigation for all parties involved.
B. It is Not Clearly Established Law in the Sixth
Circuit that a Caseworker has an Affirmative
Duty to Protect Parental Due Process Rights
When a Child is Hospitalized and Prior to the
Initiation of Any Child Custody Proceedings.
Dovetailing with the individualized analysis of a
qualified immunity defense, it must be clearly
established that certain actions taken by a caseworker
would violate the due process rights of parents in order
for the Respondents’ case to proceed. The Sixth
Circuit’s opinion erroneously concludes that Sixth
Circuit law is clear in this case.
The Sixth Circuit has previously analyzed Ohio law
regarding children’s services caseworkers and parents’
due process rights. In Pittman v. Cuyahoga County
Dept. of Children and Family Services, 640 F.3d 716
(6th Cir. 2011), the court cited to Ohio R. Juv. P. 15(A)
and Ohio Revised Code § 2151.29 while determining
that “it is the juvenile court’s responsibility to ensure
that [the parent] received adequate notice of the
custody proceedings.” Pittman, 640 F.3d at 730. Thus,
the Sixth Circuit has found that, even where a
caseworker has taken affirmative steps to extinguish a
parent’s constitutionally protected parental rights, that
caseworker is not the entity responsible for the
provision of due process.
The Respondents’ case does differ from Pittman in
certain respects, but the overall basis of the Pittman
decision should not be overlooked. A caseworker is not

19
the party to advise parents on their rights, as the
caseworker has a duty to represent the state’s interest.
Applying Pittman to this case, the inquiry shifts: what
duties does a caseworker have to inform parents of
their rights when the child is hospitalized and no
custody proceedings have been initiated to extinguish
the parents’ custody of their child? It is not logical to
extend the thrust of Pittman’s discussion to conclude
that a caseworker has a duty to protect the parents’
child custody rights when 1) the caseworker, again, has
a duty to represent the state’s interest, and 2) there
have been no formal steps taken to extinguish the
parents’ custody of their child. Therefore, Pittman
provides support for the HCJFS Petitioners’ position.
The HCJFS Petitioners, however, do not contend
that Pittman’s decision is wholly dispositive of the
question at hand. While it is revealing to the Sixth
Circuit’s general tenor on the subject, if there are other
in-circuit cases on point with fact patterns
substantially similar to the Respondents,’ there may
yet be clearly established rights to litigate further
before granting qualified immunity. The appellate
court concluded that such a case exists, citing
Kottmyer. Specifically, the Sixth Circuit cited a footnote
for the proposition that “when state officials do not
allow parents to remove a child from the hospital until
the defendants say so, that can ‘be construed to
interfere with parental custody of a child.’” App. 18-19,
quoting Kottmyer v. Maas, 436 F.3d 684, 691 n.2 (6th
Cir. 2006).
Primarily, it is crucial to recognize that a footnote is
dicta and cannot be established law. While dicta has

20
been recognized has having “persuasive precedential
value,” Jordan v. Gilligan, 500 F.2d 701, 707 (6th Cir.
1974), it is not binding, and therefore not clearly
established. This Court has commented on how clearly
established law must be in order to put a defendant on
notice, admonishing courts “not to define clearly
established law at a high level of generality.” Ashcroft
v. al-Kidd, 563 U.S. 731, 742, 131 S.Ct. 2074 (2011).
While a case that is directly on point is not required to
clearly establish a point of law, the “existing precedent
must have placed the statutory or constitutional
question beyond debate.” Stanton v. Sims, 571 U.S. 3,
6, 134 S.Ct. 3 (2013), quoting al-Kidd, 131 S.Ct. at 2083
(emphasis added); see also Wilson v. Layne, 526 U.S.
603, 616 (1999) (recognizing that unpublished opinions
and opinions from intermediate state courts cannot
create a clearly-established proposition of law). In fact,
the Sixth Circuit has recognized this, and stated that,
in order for law to become clearly established, it must
be particularized to the facts of the case. Vanderhoef v.
Dixon, 938 F.3d 271, 278 (6th Cir. 2019), citing White
v. Pauly, 137 S.Ct. 548, 552, 196 L.Ed.2d 463 (2017).
Looking closely at the Kottmyer footnote, there is no
clearly established law therein. The footnote, at best,
establishes that there are “some circumstances” where
parents being told they could not remove their child
from the hospital until a social worker allows them
could be construed to interfere with custody rights.
But the footnote concludes that Kottmyer is not one of
those cases. Kottmyer v. Maas, 436 F.3d 684, 691 n.2
(6th Cir. 2006). Moreover, the footnote fails to proceed
to identify when such a fact pattern rises to the level
necessary to where such alleged facts constitute a

21
claim. It is impossible, then, to conclude from Kottmyer
that the constitutional rights discussed therein are
beyond debate such that this Court’s admonition is
adhered to.
The remaining case citations in this area of the
Sixth Circuit’s opinion are either not on point with
regard to a social worker or case worker telling a
parent they cannot remove their child from a hospital,
or are out-of-circuit cases which cannot prove that the
law in this circuit is clearly established. Nor do the
cited cases and dicta amount to a “robust consensus” of
persuasive authority such that this Court’s admonition
is followed. See al–Kidd, supra, at 741–742, 131 S.Ct.
2074 (quoting Wilson v. Layne, 526 U.S. 603, 617, 119
S.Ct. 1692, 143 L.Ed.2d 818 (1999)). For this reason,
Petitioners urge this Court to grant this petition for a
writ of certiorari in which the analysis of the law as
applied to these individual Petitioners can be revisited
and conducted in accordance with the well-established
law regarding qualified immunity. While the question
of the Respondents’ consent may not be resolvable at
this stage of the litigation, these individual Petitioners
should not be subjected to potential individual liability
on constitutional rights not yet clearly established in
this circuit.
This matter is of significant importance beyond this
case. Throughout the various jurisdictions within the
Sixth Circuit, caseworkers and social workers are
tasked with carrying out their job duties while
preserving the delicate balance between parents’
constitutional rights and the state’s interest in the
health and well-being of children. Because of this,

22
qualified immunity is an important defense that allows
these public servants to perform their job duties
without unnecessary fear of subsequent individual
liability for doing something which has not clearly been
established to be a constitutional violation. Should the
Sixth Circuit’s opinion stand, not only will these
Petitioners be deprived of their legal right to be spared
from further litigation, but caseworkers and social
workers in the Sixth Circuit will be faced with the
prospect of performing their job duties under the
shadow uncertainty cast by an appellate court’s
unwillingness to respect the importance of qualified
immunity for such public servants who work in this
challenging and vital field.
C. This Court Should Decide That a Private
Hospital and Private Healthcare Providers
Are Not State Actors Subject to Claims Under
42 U.S.C. § 1983 When They Collaborate With
State Agencies to Meet their Legal Duties.
1. The Sixth Circuit’s Decision Finding the
Allegations in the Complaint Adequately
Pled the CCHMC Petitioners Acted Under
Color of State Law Conflicts with Sixth
Circuit Precedent, Other Circuit Court
Precedent, and Precedent from this Court.
There can be no claim under 42 U.S.C. § 1983
against private defendants unless they have acted
under color of state law. This Court has long held that
“the under-color-of-state-law element of §1983 excludes
from its reach ‘merely private conduct, no matter how
discriminatory or wrongful.’” American Manufacturers
Mutual Insurance v. Sullivan, 526 U.S. 40, 50, 119

23
S.Ct. 977, 985 (1999), citing Blum v. Yaretsky, 457 U.S.
991, 1002, 102 S.Ct. 2777, 2785 (1982). “Only in rare
circumstances can a private party be viewed as a ‘state
actor’ for section 1983 purposes.” Harvey v. Harvey,
949 F.2d 1127, 1130 (11th Cir. 1992.) The “color of
state law” requirement restricts the imposition of
§ 1983 liability to persons who “carry a badge of
authority of a State and represent it in some capacity,
whether they act in accordance with their authority or
misuse it.” NCAA v. Tarkanian, 488 U.S. 179, 191, 109
S. Ct. 454 (1988).
This Court, the Sixth Circuit, and other Circuit
Courts have consistently held that private health care
providers are not state actors who can be sued under 42
U.S.C. § 1983. See, e.g., Blum v. Yaretsky, 457 U.S. at
1004 (the “mere fact that a [nursing home] is subject to
state regulation does not by itself convert its action into
that of the State for purposes of the Fourteenth
Amendment.”); Pino v. Higgs, 75 F.3d 1461, 1466-67
(10th Cir. 1996) (private physician who examined a
detainee brought to the emergency department by the
police and certified him for involuntary commitment
was not a state actor); Hogan v. A.O. Fox Mem’l Hosp.,
346 F. App’x 627, 629 (2d Cir. 2009), citing Doe v.
Rosenberg, 996 F.Supp. 343 (S.D.N.Y. 1998), aff’d 166
F.3d 507 (2d Cir. 1999) (finding private hospitals and
private healthcare providers are not state actors when
they secured an involuntary psychiatric commitment
pursuant to New York’s civil commitment statutes);
Collyer v. Darling, 98 F.3d 211, 231-33 (6th Cir. 1996)
(independent psychiatrists who evaluated plaintiff
state employee’s fitness for duty were not state actors);
Ellison v. Garbarino, 48 F.3d 192, 195-97 (6th Cir.

24
1995) (private physicians who certified plaintiff for
commitment to a mental hospital were not state
actors); Tracy v. SSM Cardinal Glennon Children’s
Hosp., E.D.Mo. No. 4:15-CV-1513, 2016 U.S. Dist.
LEXIS 89993, *15-16, 23-25 (July 12, 2016) (collecting
cases and noting courts have uniformly held that
private hospitals and physicians are not state actors).
Indeed, under similar factual circumstances, the
First Circuit has held that private actors, such as a
private children’s hospital and employees of the
hospital, cannot be subjected to liability under 42
U.S.C. § 1983 as having acted under color of state law.
Brown v. Newberger, 291 F.3d 89, 93 (1st Cir. 2002).
The court specifically found that “[N]othing seems more
counterintuitive to us than to reason that a [child
abuse reporting statute] which protects one who
complies from civil or criminal actions under state law
should be the vehicle for subjecting the actor to liability
under federal law.” Id.
The Eleventh Circuit has held private healthcare
providers who act pursuant to state statutes to commit
the mentally ill cannot be liable under 42 U.S.C. § 1983
and that even extensive governmental regulation is not
sufficient to transform private hospitals into state
actors. Harvey v. Harvey, 949 F.2d 1127, 1132 (11th
Cir. 1992). “To hold otherwise would expose private
hospitals and private physicians to section 1983
liability whenever they act pursuant to the Georgia
commitment statutes, despite the fact that their
actions ultimately reflect medical judgments made
according to professional standards that are not
established by the state.” Id., citing Blum, 457 U.S. at

25
1008. Accord Spencer v. Lee, 864 F.2d 1376, 1377 (7th
Cir. 1989) (dismissing a claim under 42 U.S.C. § 1983
against a private physician and private hospital who
were alleged to have confined the plaintiff against his
will and to have injured him by improper medical
treatment because the physician and hospital did not
act under color of state law).
In Kottmyer v. Maas, a child was born with
significant brain damage, and a CCHMC hospital social
worker determined that the child’s mother was a
danger to the child and should not be permitted to take
the child home. 436 F.3d 684, 686-87 (6th Cir. 2006).
After the children’s services agency conducted an
investigation for several months, while the child was
transferred and kept at another medical facility, the
agency determined the mother was not a danger to the
child. Id. at 687.
The parents then filed suit against CCHMC and the
social worker employed by CCHMC under 42 U.S.C.
§ 1983. Id. The district court granted a motion to
dismiss the complaint against the hospital and the
social worker because the parents failed to allege a
constitutional violation. Id. The Sixth Circuit affirmed
on the grounds that the complaint failed to allege
CCHMC was a state actor because conclusory
allegations that the defendants were acting under color
of state law were insufficient to withstand a motion to
dismiss. Id. at 688.
The Sixth Circuit went on to acknowledge past
precedent is clear that the right to family integrity is
neither absolute nor unqualified. Id. at 690. The Sixth
Circuit ultimately concluded “that the right to familial

26
association is not implicated merely by governmental
investigation into allegations of child abuse.” Id. at
691. Accord, Blythe v. Schlievert, 2017 U.S. Dist.
LEXIS 45556 (N.D. Ohio, March 28, 2017) (dismissing
complaint alleging due process violations against
private hospital and individual doctors for complying
with state reporting requirements).
Likewise, the Sixth Circuit recently held a private
hospital, and its doctors, are not state actors subject to
claims under 42 U.S.C. § 1983 in a suit brought by
parents alleging violations of their right to familial
association and right to make decisions regarding
medical procedures for their children. Thomas v.
Nationwide Children’s Hosp., 882 F.3d 608, 612 (6th
Cir. 2018). The court held that “the frequent reality
that the State regulates private entities or cooperates
with them does not transform private behavior into
state behavior.” Id. (emphasis added), citing Jackson
v. Metro. Edison Co., 419 U.S. 345, 350, 95 S. Ct. 449,
42 L. Ed. 2d 477 (1974); Marie v. Am. Red Cross, 771
F.3d 344, 363 (6th Cir. 2014).
In an attempt to overcome this hurdle, Respondents
alleged in conclusory fashion that the HCJFS
Petitioners “exercised such coercive power and/or
provided significant encouragement that the actions by
the Children’s employees would be deemed to be that of
the state.” (RE 1, P. 24). Respondents further alleged
that “there was a sufficiently close nexus or pervasive
entwinement between HCJFS and the Children’s
employees so that their conduct was fairly attributable
to the state.” (RE 1, P. 24). Respondents’ mere
conclusory allegations, however, are not sufficient to

27
state a plausible claim that the CCHMC Petitioners
acted under color of state law.
Respondents’ Complaint merely parrots the
language of the elements required for establishing that
a defendant is acting under color of state law, which
must be disregarded. See, e.g., Lillard v. Shelby
County Board of Education, 76 F.3d 716, 726-27 (6th
Cir. 1996) (court not required to accept unwarranted
legal conclusions in determining whether complaint
states a §1983 claim for relief); Ashcroft v. Iqbal, 556
U.S. 662, 678, 129 S. Ct. 1937, 1949 (2009). Other than
mimicking the tests to establish that a defendant is
acting under color of state law, Respondents’ Complaint
is devoid of factual allegations demonstrating the
CCHMC Petitioners “carr[ied] a badge of authority of
a State and represent[ed] it in some capacity,” as is
required to impose liability under § 1983. NCAA. v.
Tarkanian, 488 U.S. at 191.
The Sixth Circuit’s decision not only conflicts with
the precedent set forth above from this Court, the Sixth
Circuit, and other Circuit Courts, it also clearly
involves questions of exceptional public importance
under federal law. The Sixth Circuit’s decision allows
a plaintiff to overcome the general rule that a private,
non-profit hospital is not a state actor by simply
pleading that the hospital and its employees cooperated
with a state agency for the appropriate treatment of a
suicidal minor while the state agency performs its own
independent investigation of abuse by the child’s
parents. The Sixth Circuit’s decision will expose
private hospitals and physicians to liability under 42
U.S.C. § 1983 every time they collaborate with state

28
agencies to meet their legal duties. Such exposure will
have an inevitable chilling effect when cooperation
between a hospital and a state agency is needed to
administer care they deem medically necessary for a
child in need, particularly from parents who are alleged
to be abusive.
2. The CCHMC Petitioners’ Compliance with
State Reporting Statutes Did Not
Transform them into State Actors.
Under Ohio Revised Code § 2151.421(A), health care
professionals who have reasonable cause to suspect a
minor child has suffered or faces a threat of suffering
any physical or mental wound, injury, disability, or
condition that reasonably indicates abuse or neglect of
the child must report that suspected abuse to the
appropriate public children services agency. Moreover,
R.C. § 2151.421(D)(3) provides, in relevant part:
If a health care professional provides health care
services in a hospital, children’s advocacy center,
or emergency medical facility to a child about
whom a report has been made under division (A)
of this section, the health care professional may
take any steps that are reasonably necessary for
the release or discharge of the child to an
appropriate environment. Before the child’s
release or discharge, the health care professional
may obtain information, or consider information
obtained, from other entities or individuals that
have knowledge about the child.

29
Additionally, the statute further provides:
Medical examinations, tests, or procedures
conducted under divisions (D)(1) and (4) of this
section and decisions regarding the release or
discharge of a child under division (D)(3) of this
section do not constitute a law enforcement
investigation or activity.
R.C. § 2151.421(D)(5) (emphasis added).
Pursuant to the above statute, the CCHMC
Petitioners were entitled to take any steps reasonably
necessary for the discharge of Minor Siefert to an
appropriate environment.
R.C. § 2151.421(D)(5)
specifically states that decisions regarding the release
or discharge of such a child do not constitute a law
enforcement investigation or activity (i.e. state action).
At the time Minor Siefert was voluntarily admitted to
CCHMC, Minor Siefert had already contacted the
HCJFS Petitioners and reported suicidal ideations and
abuse by Respondents, leading the HCJFS Petitioners
to initiate an investigation into the suspected abuse.
(RE 1, P. 7-8). Because the HCJFS Petitioners were
actively investigating the suspected abuse throughout
the time Minor Siefert was at CCHMC, CCHMC was
unable to discharge Minor Siefert until it was
determined that Minor Siefert could be discharged to
an appropriately safe environment. (RE 1, P. 12).
However, mere cooperation with HCJFS’ investigation
of suspected abuse by Respondents did not transform
a private hospital and individual employees of a private
hospital into state actors.

30
In fact, the CCHMC Petitioners were specifically
entitled to obtain information from the HCJFS
Petitioners in order determine whether Respondents
would provide an appropriate environment upon Minor
Siefert’s discharge. R.C. § 2151.421(D)(5). Since the
HCJFS Petitioners allegedly concluded Respondents
posed a threat to Minor Siefert’s health and safety due
to the suspected abuse, the CCHMC Petitioners were
compelled to consider that information in determining
what was necessary to discharge Minor Siefert to an
appropriate environment. (RE 1, P. 12, 14).
As alleged in the Complaint, it was not until
December 20, 2016 that Respondents agreed to enter
into a voluntary safety plan, allowing Minor Siefert to
temporarily stay with Minor Siefert’s maternal
grandparents. (RE 1, P. 17). Once Respondents agreed
to enter into that voluntary safety plan, the CCHMC
Petitioners concluded Minor Siefert could be discharged
to an appropriate environment. Minor Siefert was then
discharged that same day. (Id.). Thus, the CCHMC
Petitioners did nothing more than provide medical
treatment, comply with Ohio’s child-abuse reporting
statutes, and cooperate with the state agency
responsible for investigating suspected child abuse.
Consistent with precedent from this Court, the
Sixth Circuit, and other Circuit Courts, the CCHMC
Petitioners’ compliance with state reporting statutes
did not transform them into state actors. See, e.g.,
Ellison, 48 F.3d at 195-97 (finding a private physician’s
decision to admit a patient pursuant to a state
involuntarily commitment statute was not made under
color of state law); Harville v. Vanderbilt University,

31
Inc., 95 Fed. Appx. 719, 726 (6th Cir. 2003) (private
physicians were not acting under color of state law in
reporting to child welfare agency); Mueller v. Auker,
700 F.3d 1180 (9th Cir. 2012) (hospital did not
become a state actor simply because it complied with
state law requiring its personnel to report possible
child neglect to protective services); Brown v.
Newberger, 291 F.3d 89, 93 (1st Cir.2002) (“Nothing
seems more counterintuitive to us than to reason that
a [child abuse reporting statute] which protects one
who complies from civil or criminal actions under state
law should be the vehicle for subjecting the actor to
liability under federal law.”); Thomas v. Beth Israel
Hospital, 710 F.Supp. 935, 940 (S.D.N.Y. 1989) (a
healthcare institution’s compliance with state law by
reporting suspected child abuse did not constitute
acting under color of state law); Blythe, 2017 U.S. Dist.
LEXIS 45556, *19 (noting courts have consistently
rejected claims that private healthcare providers
became state actors when they complied with state
reporting laws); Haag v. Cuyahoga County, 619
F. Supp. 262 (N.D. Ohio 1985) (psychologist who had
mandatory duty under state statute to report child
neglect and/or abuse was not a state actor), aff’d 798
F.2d 1414 (6th Cir. 1986); Tracy v. SSM Cardinal
Glennon Children’s Hosp., E.D.Mo. No. 4:15-CV-1513
CAS, 2016 U.S. Dist. LEXIS 89993, at *23-25 (July 12,
2016) (collecting cases and noting courts have
uniformly held private hospitals and physicians who
report suspected child abuse do not become state actors
simply because the reporting is carried out pursuant to
state law).

32
Respondents alleged that the CCHMC Petitioners
should be considered state actors due to their mere
cooperation with the HCJFS Petitioners’ investigation
of suspected abuse. That is simply insufficient to
transform private healthcare providers into state
actors under existing precedent from this Court, the
Sixth Circuit, and other Circuit Courts.
Nevertheless, the Sixth Circuit panel determined
that the CCHMC Petitioners’ conduct was fairly
attributable to the state in a manner sufficient to
establish the CCHMC Petitioners’ state-actor status.
(RE 41-2, p. 7). The Sixth Circuit found that
Respondents presented specific factual allegations
“detailing a deep and symbiotic relationship between
Children’s and the county.” (Id.). The Sixth Circuit’s
decision relied upon the fact that the CCHMC
Petitioners and the HCJFS Petitioners remained in
contact and allegedly gave Respondents conflicting
information about who would make the ultimate
decision to discharge Minor Siefert. (Id.) Finally, the
Sixth Circuit found that the CCHMC Petitioners’
cooperation with the HCJFS Petitioners showed it was
a willful participant in joint activity with the state or
its agents. (Id.)
Contrary to the Sixth Circuit’s decision, the
CCHMC Petitioners and the HCJFS Petitioners
remained in contact simply because both parties were
attempting to comply with their independent statutory
duties. As Respondents alleged in their Complaint,
HCJFS’ purpose is to “take reports of child abuse and
neglect, to investigate such reports, and to act to
protect child victims at risk of harm.” (RE 1, Page 3,

33
¶ 5.) There is no dispute that the HCJFS Petitioners
were actively investigating suspected child abuse by
Respondents throughout the time in which Minor
Siefert was admitted at CCHMC.
Likewise, the CCHMC Petitioners were merely
complying with their independent statutory duties to
act in the best interest of Minor Siefert. In accordance
with R.C. § 2151.421(D), CCHMC was unable to
discharge Minor Siefert until it was determined Minor
Siefert could be discharged to an appropriately safe
environment.
Under R.C. § 2151.421(D)(3), the
CCHMC Petitioners were specifically authorized to
obtain and consider information from other entities or
individuals who had knowledge about Minor Siefert to
ensure Minor Siefert was discharged to an
appropriately safe environment. Thus, the CCHMC
Petitioners did nothing more than provide medical
treatment to Minor Siefert, cooperate with the HCJFS
Petitioners’ investigation, and fulfill their legal duties
given the suspected child abuse. Nevertheless, the
Sixth Circuit’s decision did not acknowledge or
reference R.C. § 2151.421(D) or the CCHMC
Petitioners’ independent legal duties thereunder.
As noted above, if Respondents’ conclusory
allegations are sufficient to withstand a motion to
dismiss on the basis that a private hospital and private
healthcare providers are state actors, that will have an
inevitable chilling effect when cooperation between a
hospital and a state agency is needed to administer
care deemed medically necessary for a child in need,
particularly from parents who are alleged to be
abusive. Under such circumstances, private hospitals

34
and healthcare providers should be focused on
providing necessary medical care and acting in the best
interest of the child, without fear of exposure to
liability under 42. U.S.C. § 1983.
CONCLUSION
For the foregoing reasons, Petitioners respectfully
request that the Court grant their Petition for a Writ of
Certiorari.
Respectfully submitted,
J. David Brittingham
Counsel of Record
JASON R. GOLDSCHMIDT
DINSMORE & SHOHL LLP
255 East Fifth Street
Suite 1900
Cincinnati, Ohio 45202
(513) 977-8200
david.brittingham@dinsmore.com
jason.goldschmidt@dinsmore.com

JAMES W. HARPER
JEROME A. KUNKEL
ERIC A. MUNAS
Assistant Prosecuting
Attorneys
230 East Ninth Street
Suite 4000
Cincinnati, Ohio 45202
(513) 946-3000
james.harper@hcpros.org
jerry.kunkel@hcpros.org
eric.munas@hcpros.org

Counsel for Petitioners

